KLE

al Briefs

2311 Douglas Street
Omaha, Nebraska 68102-1214

Tr
Coc

Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850
No. 20-297
TRANSUNION LLC,
Petitioner,

,
SERGIO L. RAMIREZ,
Respondent.

CERTIFICATE OF COMPLIANCE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
IMPACT FUND, NAACP LEGAL DEFENSE & EDUCATIONAL FUND, INC., AND 24 CIVIL
RIGHTS ORGANIZATIONS IN SUPPORT OF RESPONDENT in the above entitled case

complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New

Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains

5243 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 10th day of March, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

Knee. 0. Lass?

Notary Public

fe nests GENERAL NOTARY-State of Nebraska
RENEE J. GOSS
fe nests My Comm. Exp. September 5, 2023

Oudraw- Kh. Bll

Affiant 40657
